               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Delivering Results, Innovation, Value,
        and Efficiency Management

                       Audit Report




                                              June 19, 2013

Report Number DP-AR-13-008
                                                                           June 19, 2013

                                            Delivering Results, Innovation, Value, and
                                                              Efficiency Management

                                                          Report Number DP-AR-13-008



BACKGROUND:
The U.S. Postal Service’s 2011 Annual         review the relationship between
Report to Congress and Comprehensive          program management and project
Statement on Postal Operations stated         management best practices in a future
that the Postal Service needed                audit.
significant improvement in managing
strategic projects and noted the              Additionally, the DRIVE program does
beginning of a rigorous, disciplined          not use an important identified best
process for developing, reviewing, and        practice which requires regular audits
tracking strategic initiatives.               and controls for each project at the
                                              program manager level.
The Postal Service uses the Delivering
Results, Innovation, Value, and               Further, while standard program
Efficiency (DRIVE) program                    management processes are
management process to manage                  implemented, a formal policy supporting
programs and operations to achieve            the overall program management
strategic objectives.                         process has not been developed. By
                                              establishing a Postal Service-wide
Our objective was to compare the Postal       policy for executing program
Service’s DRIVE program management            management, the Postal Service can
process to best-in-class corporate            better manage program performance
program management practices.                 and improve project team accountability.

WHAT THE OIG FOUND:                           RECOMMENDATIONS:
The Postal Service’s DRIVE program            We recommended management
compares favorably to the best-in-class       evaluate implementing the additional
program management practices                  best practice within the DRIVE program
identified in our analysis. While the         of regular audits and controls for each
DRIVE program is promising, it does not       project at the program manager level.
ensure that projects will be successful.      We also recommended management
For example, in prior audits (such as the     develop and implement a Postal
Flats Sequencing System and                   Service-wide program management
Commercial Mail Entry Initiatives             policy.
reports) we identified concerns with
project management. In those reports          Link to review the entire report.
we cited the need for improved tracking,
monitoring, training, collaboration, and
performance projections. We plan to
June 19, 2013

MEMORANDUM FOR:             JOSEPH CORBETT
                            CHIEF FINANCIAL OFFICER AND
                            EXECUTIVE VICE PRESIDENT



FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue and Performance

SUBJECT:                    Audit Report – Delivering Results, Innovation, Value,
                            and Efficiency Management
                            (Report Number DP-AR-13-008)

This report presents the results of our audit of Delivering Results, Innovation, Value,
and Efficiency Management (Project Number 12YG022CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Ellis Burgoyne
    Stephen Masse
    Michael Amato
    John Edgar
    Emil J. Dzuray Jr
    J. Otis Smith
    Corporate Audit and Response Management
Delivering Results, Innovation, Value,                                                                             DP-AR-13-008
 and Efficiency Management



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delivering Results, Innovation, Value, and Efficiency Management Practices ................ 2

Delivering Results, Innovation, Value, and Efficiency Management Policy ..................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Program Management Best Practices....................................................... 11

Appendix C: Project Management Issues Identified In Prior Reports ............................ 17

Appendix D: Management's Comments ........................................................................ 19
Delivering Results, Innovation, Value,                                                                   DP-AR-13-008
 and Efficiency Management



Introduction

This report presents the results of our audit of the U.S. Postal Service’s Delivering
Results, Innovation, Value, and Efficiency (DRIVE) management (Project Number
12YG022CI000). Our objective was to compare the DRIVE program management
process to best-in-class corporate program management practices. This self-initiated
audit addresses strategic risk. See Appendix A for additional information about this
audit. The Project Management Institute (PMI) defines program management as
"a group of related projects managed in a coordinated way to obtain benefits and control
not available from managing them individually."1 Programs are the link between
executive-level strategy and the projects and operations that deliver value.

The Postal Service's definition of program management is similar to the PMI definition.
Postal Service program management is used to define and achieve organization
objectives through the management of complex projects and resources. Program
management coordinates multiple, related projects and operations to achieve a
common strategic objective while project management focuses on delivering a single
project.

The Postal Service uses DRIVE as its program management process to improve
business strategy development and execution. Development of the DRIVE process
began in June 2011 along with its program portfolios. The Executive Leadership Team
(ELT),2 the Strategic Management Office (SMO), and individual DRIVE program and
project managers manage the process.

Our analysis identified best-in-class program management practices used by
13 corporations (see Appendix A and Table 1).

Conclusion

The Postal Service’s DRIVE program compares favorably to best-in-class program
management practices identified in our analysis. While this is promising, it does not
ensure that projects will be a success, which is a concern we have identified in prior
audit reports. For example, our audits on the Flats Sequencing System (FSS) and on
the Commercial Mail Entry Initiatives identified project management issues concerning
better coordination, monitoring, timeliness, and financial and operating performance.
See Appendix C for more details about these audits.



1
  PMI is a not-for-profit professional organization for the project management profession established to advance
project management. PMI defines a project as "a temporary endeavor undertaken to create a unique product or
service" (Program Management by Michel Thiry, page 14).
2
  The ELT consists of the postmaster general and chief executive officer; the deputy postmaster general; the chief
operating officer and executive vice president (EVP); the chief information officer (CIO) and EVP; the chief financial
officer (CFO) and EVP; the general counsel and EVP; and the chief Marketing and Sales officer and EVP.
                                                              1
Delivering Results, Innovation, Value,                                                                  DP-AR-13-008
 and Efficiency Management


We plan to review the relationship between program management and project
management best practices in a future audit. In addition, the DRIVE program has not
implemented regular audits of controls for each project at the program manager level,
an important identified best practice. We believe implementing these changes would
strengthen program management. Further, management has not developed a formal
policy supporting the overall program management process.

By implementing this best practice and establishing a DRIVE program management
policy for executing program management, the Postal Service can better manage
program performance and improve project team accountability. A standard set of
policies and procedures also provides an easy reference for management and project
teams while reinforcing program and project management objectivity, which drives
efficiency.

Delivering Results, Innovation, Value, and Efficiency Management Practices

We identified best-in-class program management practices found in major companies.
Although these practices represent a common usage among the participating
organizations, no single organization uses all of the practices. Accordingly, the Postal
Service should use those best practices that fit their circumstances, capabilities, and
priorities. See Appendix B for details regarding these practices.

As a result of our analysis and interviews with SMO personnel and a DRIVE program
manager, we concluded that DRIVE management compares favorably to the identified
best-in-class program management practices (see Appendix B for additional details).

However, one of the important identified practices is not currently used in DRIVE
management. Accordingly, the Postal Service should consider implementing regular
audits of controls for each project at the program management level. Audits ensure that
no reporting mistake goes unnoticed for longer than one audit cycle. Without regular
audits of actual progress versus reported progress, there is less accountability for team
members to report accurately and a greater probability that program managers (and
executive sponsors) receive incomplete or inaccurate information.

Delivering Results, Innovation, Value, and Efficiency Management Policy

Although certain steps were documented, such as a governance document3
documenting various portfolio level controls, forms and templates, reporting
requirements for Decision Analysis Report (DAR),4 and ELT "Deep Dives,"5 no policy
supporting the overall DRIVE program management process has been developed.




3
  DRIVE governance issued by the SMO, last revised June 20, 2012.
4
  A document developed by the requiring organization to justify a DRIVE initiative or project investment and to assist
the approving authorities in making decisions concerning the use of Postal Service funds.
5
  The ELT conducts twice monthly deep-dive meetings to review DRIVE initiatives.


                                                           2
Delivering Results, Innovation, Value,                                       DP-AR-13-008
 and Efficiency Management


By establishing a Postal Service-wide program management policy for executing
program management, the Postal Service can better manage program performance and
improve project team accountability. A standard set of policies and procedures provides
an easy reference for management and project teams while reinforcing program and
project management objectivity, which drive efficiency. Management indicated they
have not considered a policy covering the entire spectrum of program management
because their efforts to date have been at the portfolio level.

Recommendations

We recommend the chief financial officer and executive vice president:

1. Evaluate implementing regular audits and controls for each project at the program
   management level.

2. Develop and implement a Postal Service-wide program management policy that
   identifies the best practices currently employed by the Postal Service, as well as
   differentiates between mandated and optional practices. This process should also
   take into consideration best practices, including those provided by the U.S. Postal
   Service Office of Inspector General.

Management’s Comments

Management agreed with our findings and recommendations. However, management
requested that we delete the statement “The DRIVE program has not implemented
regular audits and control for each project at a program level. . .” from the report
because management believes DRIVE does control and provide reviews or “audits” of
strategic programs and projects during their bi-weekly Deep-Dive meetings.

Regarding recommendation 1, management stated that the Office of Strategic Planning
is currently implementing a risk assessment process at the program management level
to evaluate and provide feedback on the extent to which roadmap owners are adhering
to program management best practices. The Office of Strategic Planning is also
propagating best practices for program management by providing ongoing project
management training to Postal Service program managers on various topics based on
PMI methodologies. This will be accomplished by Quarter (Q)4, fiscal year (FY) 2013.

Regarding recommendation 2, management stated the CFO will establish and publish a
Postal Service-wide program management policy for strategic programs based on
industry practices. This will be accomplished by Q2, FY 2014. See Appendix D for
management’s comments in their entirety.




                                            3
Delivering Results, Innovation, Value,                                       DP-AR-13-008
 and Efficiency Management


Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the findings and recommendations in the report. Although
management believes the DRIVE process does provide sufficient control and also
provides for reviews or “audits” of strategic programs and projects, the OIG maintains
that the current process of bi-weekly 'Deep Dive' reviews does not serve as an
independent audit at the program level. However, we find the additional controls
established by management are responsive to recommendation 1.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           4
Delivering Results, Innovation, Value,                                           DP-AR-13-008
 and Efficiency Management



                                 Appendix A: Additional Information

Background

Program management is a relatively new discipline, appearing after several
well-publicized, large-scale studies (Standish Group, 1996; KPMG, 1997) identified a
high failure rate for large-scale, long-term projects. These studies exposed weaknesses
in the traditional project management methods for these types of projects and program
management has since emerged as a distinct discipline. The PMI defines program
management as “a group of related projects managed in a coordinated way to obtain
benefits and control not available from managing them individually.” According to one
author, programs constitute the missing link between executive-level strategy and the
projects and operations that will enable it to deliver value6.

The Postal Service defines program management as "defining and achieving
organization objectives through the management of complex projects and resources."
Furthermore, the Postal Service differentiates program management from project
management by saying that project management focuses on delivering a single project
whereas program management coordinates multiple, related projects and operations to
achieve a common strategic objective.

Program management refers to the overarching infrastructure and ability to manage a
portfolio of projects, including monitoring the portfolio across a variety of functions (such
as finance, marketing, and so forth.) in light of the organization's strategy and mission.
Effective program management builds a strong infrastructure for program and project
implementation, but does not ensure individual project success. OIG audits have
identified significant concerns with project management. Our audits of the FSS and
Commercial Mail Entry Initiatives identified project management issues concerning
better coordination, accountability, timeliness, and financial and operating performance.
See Appendix C for more details about these reports.

Success depends on program level best practices and other project management best
practices being transferred or extended to the project level and the project manager’s
willingness and ability to leverage and use those practices. One of the ways to help
ensure success at the program level is by using regular audits and controls for each
project at the program manager level. Regular audits of actual versus reported progress
help ensure the accountability of team members to report accurately and a greater
probability that program managers and executive sponsors receive complete and
accurate information. This ensures that no reporting mistake goes unnoticed for longer
than one audit cycle. Considering the relationship between program management and
project management best practices, project management best practices will be the
subject of a future OIG audit.



6
    Program Management by Michel Thiry, page 1.


                                                  5
Delivering Results, Innovation, Value,                                                             DP-AR-13-008
 and Efficiency Management



Strategic Management Office

Recognizing its inherent value, the Postal Service identified program management as
an area for improvement in their 2011 Annual Report:7

        During FY 2011, Postal Service management recognized that the scope,
        scale, and pace of necessary organizational change required significant
        improvement in their management of strategic projects.8 (italics added
        for emphasis). Following a detailed review of industry best practices, and
        with advice from recognized private-sector experts, the Postal Service
        began implementing a rigorous, disciplined process for developing,
        reviewing, and tracking strategic initiatives.9

As part of the 2011 improvement process, the Postal Service created a DRIVE SMO to
report to the CFO and EVP. The mandate of the SMO includes coordinating and
implementing strategic initiatives that support net income and revenue growth targets.

The SMO — along with contractor assistance — established DRIVE, which consists of
an initial 36 initiatives, each with one or more strategic objective. Initiative leads were
assigned to develop programs to satisfy each objective. According to Postal Service
management, the annual savings associated with DRIVE are in excess of $20 billion10
and all savings must be realized for the Postal Service to return to profitability.
Consequently, effective program management practices are essential to developing,
reporting, and realizing these savings.

Each year ELT sponsors present their recommendations for initiatives, including the
DRIVE portfolio. The general parameters the ELT uses to reassess current and add
critical initiatives are:

   Bold with significant and measurable outcomes, such as:

    o   Having greater than $50 million in revenue contribution or cost reduction.
    o   Improving key stakeholder alignment.
    o   Greatly enhancing key capabilities.
    o   Growing revenue from new products/markets/customers.

   Aggressively addresses costs over the next few years to get ahead of revenue plan.
   Is critical to either the short- or long-term success of the Postal Service.
   Requires extensive cross-enterprise coordination and ELT visibility.
   Merits assignment of your best staff members and resources.

7
  2011 Annual Report to Congress and Comprehensive Statement on Postal Operations, page 31.
8
  Program and project management are often used interchangeably. In this context, the intent is program
management, as the SMO is responsible for managing strategic initiatives and assigning one or more programs to
each initiative.
9
  2011 Annual Report to Congress and Comprehensive Statement on Postal Operations, page 31.
10
   Plan to Profitability, presented February 16, 2012.


                                                        6
Delivering Results, Innovation, Value,                                      DP-AR-13-008
 and Efficiency Management



DRIVE uses different program management terminology than the PMI, which generally
refers to the three levels of program management as portfolios, programs, and projects.
DRIVE refers to these same levels as initiatives, roadmaps, and projects. The
differences between the two are primarily semantic and are illustrated in Figure 1.

                                     Figure 1: DRIVE Pyramid11




Technology Management Office System

The Technology Management Office System (TMOS) was designed to present a
dashboard view of projects selected by the dashboard owners. The CIO's organization
and the Corporate Marketing and Sales officer's organization use the TMOS to track
and manage selected projects. The TMOS has recently been modified to incorporate
DRIVE initiatives and roadmaps for the SMO and ELT to use.

Currently there are 264 active projects, 86 of which are managed in DRIVE. A review of
the remaining 178 projects indicates that they are stand-alone projects that are not
associated with a program and that fall outside the scope of our audit. The recent
software revision adds 27 initiatives and 115 roadmaps. Roadmaps, for the purposes of
our project, are equivalent to programs as depicted in Figure 1.

Objective, Scope, and Methodology

Our objective was to compare the Postal Service’s DRIVE program management
process to best-in-class corporate program management practices. To accomplish our
objective, we engaged a contractor to identify best practices using research and
analysis based on their extensive expertise.




11
     Source: TMOS DRIVE User Guide, page 8.


                                                 7
Delivering Results, Innovation, Value,                                        DP-AR-13-008
 and Efficiency Management



Specifically, we sought to understand how other organizations:

   Use enterprise-wide management practices to create an environment that facilitates
    effective implementation of programs.

   Use Project Management Offices (PMOs) in their organizations to assist in the
    program management process.

   Use program managers to optimize performance of their programs.

We interviewed representatives from 13 organizations in selected industries. The
organizations included direct competitors, organizations in regulated industries,
award-winning program management companies, businesses with similar logistics and
workforces, and organizations with highly technical programs. We selected direct
competitors because they perform tasks similar to the Postal Service and might face
some of the same challenges and constraints, such as managing multiple strategic
initiatives. We selected organizations in regulated industries because they face similar
legal constraints and selected award-winning program management companies due to
their recognized success with various types of programs. Finally, we selected
businesses that have similar logistics, workforces, competing programs, and initiatives;
and organizations with highly technical programs to deal with rapidly changing
industries and complex programs. An OIG auditor was present during each interview.
While no single organization is considered “world class” in all aspects of program
management, each of the 13 organizations have elements of excellence (see Table 1
for a list of participating organizations).

No two of the 13 selected organizations use the same PMO structure and role. This
illustrates the importance of adopting a program management strategy that best suits
the needs of the organization and highlights the fact that there are multiple methods for
successfully managing programs.

To compare best-in-class program management practices against current
Postal Service program management practices, we:

   Interviewed personnel in the SMO.

   Interviewed a program manager whose management process was identified as
    representative of DRIVE initiatives.

   Interviewed personnel in the office of the CIO.

   Reviewed forms, templates, and training material developed by the SMO.

   Reviewed DAR requirements.




                                             8
Delivering Results, Innovation, Value,                                                                 DP-AR-13-008
 and Efficiency Management


      Analyzed reports available in the TMOS as a source for additional Postal Service
       programs.

Appendix B identifies each best practice and compares them to current DRIVE
management practices.

                               Table 1: List of Participating Organizations


                                 Number of
        Company12                Employees                      Rationale for Selection
                                  (About)
                                                   Manages complex, highly technical programs for external
                                    250,000        customers.
     AT&T
     Boeing                                        Operates in the highly regulated defense industry; manages
                                    175,000        extremely large, complex programs.
                                                   Operates in a highly regulated industry; has experienced
     Large Fortune
                               20,000-40,000       significant growth and has recently completed a major
     500 company                                   acquisition.
                                                   Dell Service’s Healthcare and Life Sciences Division was
                                                   named PMO of the Year in 2011 by PMI’s Program
     Dell                           110,000        Management Community of Practice; boasts a 96 percent
                                                   project success rate.
     FedEx                                         Same industry as the Postal Service, provides insight into how
                                    290,000        a competitor manages multiple strategic initiatives.

                                                   Manages a diverse set of complex, highly technical programs;
                                    350,000        recently completed a billion dollar acquisition.
     HP
     Intel                                         Manages large, high-risk technology programs; operates in a
                                    100,000        rapidly changing industry.

     Parsons                                       Ranked 14th of Engineering News-Record’s Top 500 design
                                     11,500        firms in 2011; manages extremely large, complex programs.

     PepsiCo                                       Similar logistics/delivery functions as the Postal Service and
                                    300,000        manages many competing projects and initiatives.

     Royal Mail                                    Same industry as the Postal Service, provides insight into how
                                    176,000        another postal organization manages multiple strategic
                                                   initiatives.
     T-Mobile                                      Created an award-winning Enterprise Program Office in 2009,
                                    42,000         bringing together several former independent project
                                                   management groups under one umbrella.
                                                   Similar workforce (large, geographically dispersed, etc.),
     Large national
                                  1,500,000        operates physical branches, manages many competing projects
     retailer                                      and initiatives.
     Xerox                                         Manages a diverse set of complex, highly technical programs;
                                    140,000        recently completed a multi-billion dollar acquisition.
 Source: OIG - Best Practices Analysis.




12
     Organizations listed in alphabetical order.


                                                      9
Delivering Results, Innovation, Value,                                        DP-AR-13-008
 and Efficiency Management



We conducted this performance audit from April 2012 through June 2013 in accordance
with generally accepted government auditing standards and included such tests of
internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 26, 2013, and included their
comments where appropriate.

We assessed the reliability of computer generated data from the TMOS
by comparing key information against separately prepared documents provided by
management. We determined that the data was sufficiently reliable for the purposes of
this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the specific objective of
this audit. We have performed prior audit work related to project management, which is
cited in Appendix C.




                                            10
Delivering Results, Innovation, Value,                                          DP-AR-13-008
 and Efficiency Management




                     Appendix B: Program Management Best Practices

The program management best-in-class practices developed from our analysis are
grouped into the three strategy categories below:

Enterprise-Level Strategy — Which organization-wide management practices create an
environment that promotes effective implementation of programs?

1. Secure early buy-in from senior leadership: Buy-in from senior executives is
   critical to the program’s long-term success. Using program charters and pilot
   programs give executives the opportunity to shape program direction and provide
   visibility into the value and likely success of a program. Acquiring support from the
   highest levels of the organization is critical to overall program success and viability.
   The ELT is instrumental in developing and managing the strategic objectives and
   associated DRIVE programs. The ELT meets regularly with the DRIVE Portfolio
   manager and DRIVE program managers to address issues and monitor progress on
   these programs:

2. Establish an organization-wide culture that facilitates and encourages open
   lines of communication among employees across multiple levels of the
   organization: All program and project team members should be informed of the
   importance of identifying and reporting potential issues as they emerge over the
   course of the program. Open communication between program and project team
   members, stakeholders, and other impacted program participants is important, as it
   helps facilitate the flow of information and informed decision-making.

    DRIVE is a data-driven management system designed to improve Postal Service
    business strategy. DRIVE begins with the postmaster general and the ELT, who are
    collectively responsible for overseeing the DRIVE portfolio. The ELT reviews all
    DRIVE initiatives on a regular basis, evaluates progress, and makes judgments
    about the composition of the portfolio. DRIVE program managers meet with
    executive sponsors weekly and with team members daily, which encourages open
    lines of communication.

3. Create a culture committed to program management through investment and
   education: Senior leaders must demonstrate a strong commitment to program
   management strategy to encourage compliance with that strategy throughout an
   organization. Organizations must employ experts in program management to
   implement a program when they lack the proper experience internally. Also, they
   must provide educational opportunities to employees to grow effective program
   managers internally and ensure all team members have the same foundational
   knowledge of program management.




                                            11
Delivering Results, Innovation, Value,                                             DP-AR-13-008
 and Efficiency Management


    The SMO uses a third party to provide program management services should any
    program sponsor feel they lack sufficient expertise to manage a program. In
    addition, the SMO has arranged for program management training on a variety of
    subjects to improve and standardize program management skills throughout the
    organization.

4. Adopt a standardized program management strategy (including language,
   documentation forms, and procedures) that meets the needs of the
   organization to prevent confusion and clarify roles and responsibilities: A
   standard program management strategy enables all employees to “speak a common
   language,” which improves the efficiency of communications and reduces
   misunderstandings or oversights. Having clearly defined language also helps to
   distinguish various roles and activities, which prevents confusion about team
   member responsibilities. PMI standards provide a baseline that can be universally
   applied to some extent, but best-in-class organizations adjust and customize to the
   specific needs of their organization.

    The SMO generally adheres to this best practice. The SMO has made program
    management training available throughout the organization, helping to adopt a
    common program management strategy. In addition, standard forms and templates
    have been developed and are available on the SMO website and their use is
    encouraged. However, we found no approved formal policy supporting the overall
    program management process.

5. Establish a clear chain of decision-making authority at program launch: Having
   a clear chain of command prior to a program launch is important because it can
   prevent unnecessary delays and confusion when issues arise.

    The DRIVE charter requires appointment of an ELT sponsor and an initiative lead.

PMO and Cross-Functional Strategy — What role do PMOs play in organizations and
how do PMOs assist in the program management process?

6. Leverage program manager objectivity to prioritize needs and manage
   interdependencies: Program managers often have interdependencies across work
   streams that require regular reprioritization of time and resources to continually
   make progress. An independent program manager is better able to identify key
   interdependencies and quickly enact changes to avoid major program delays.

    DRIVE program managers use Microsoft Project to identify program
    interdependencies and use the Integrated Master Schedule to identify
    interdependencies among initiatives. Use of both tools help program managers
    identify potential conflicts, generally with sufficient time to develop a resolution.
    Those issues that cannot be easily resolved and would threaten schedules or
    program objectives are brought to the attention of the executive sponsor and, if
    necessary, to the entire ELT during their next scheduled bi-weekly meeting.



                                              12
Delivering Results, Innovation, Value,                                                               DP-AR-13-008
 and Efficiency Management


7. Provide program-wide visibility to senior executives: Executives must be
   regularly informed of developments at the program level to make sound decisions.

       The ELT meets bi-weekly on DRIVE initiatives and programs. In addition, the ELT
       and the program members have access to a dashboard to view the status of DRIVE
       initiatives and programs.

 8. Align metrics with desired outcomes for both progress and performance:
    Organizations typically have two sets of program metrics: standardized metrics that
    measure progress within a program and program-specific metrics that measure
    performance against business outcomes. Metrics should account for and track
    measurements that promote effective program management and stakeholder
    satisfaction.

       The Postal Service uses metrics to track performance and progress with the
       assistance of the SMO. Standardized metrics utilized for DRIVE are financial
       impacts and operational key performance indicators. These metrics help identify key
       risks, interdependencies, and regulatory/legislative issues.

 9. Develop a formal, documented stakeholder management plan: Create a
    document that outlines a clear strategy and tactical plan for execution that supports
    the program’s ability to deliver value to all stakeholders. A documented plan
    eliminates confusion around communication responsibilities and reduces the
    likelihood of dissatisfied or ‘surprised’ stakeholders. Additionally, early identification
    of potential stakeholder conflicts may provide program managers an opportunity to
    plan for and prepare steps to mitigate them.

       The DRIVE process requires stakeholder approval as part of the DAR13 process. In
       addition, the ELT must approve any significant change to a DRIVE initiative.
       Although implemented slightly differently than described above, these combined
       processes address this best practice.

10. Use and communicate cost-benefit analysis to stakeholders to enable
    informed and effective decision-making: Cost-benefit analysis provides a
    standardized framework for thinking about the impact of potential options within a
    decision. It allows stakeholders to quickly absorb the expected implications of each
    option without requiring a lengthy briefing of background information. Without cost-
    benefit analysis, it can become difficult to identify a failing program and can lead to
    organizations continuing to fund programs that have a low probability of providing
    returns.

       DRIVE initiatives that require funding or have a financial impact must also have an
       approved DAR. Each DAR contains a justification section, including a cost-benefit
       analysis. The DAR approval page documents review and approval by stakeholders
       and is an example of adherence to this best practice.

13
     See http://blue.usps.gov/cape/over.htm, Investment Review and Approval Process Overview, slides 3 through 5.


                                                          13
Delivering Results, Innovation, Value,                                                                 DP-AR-13-008
 and Efficiency Management



11. Communicate program status to all stakeholders at regular intervals while
    also communicating potential difficulties in real time: Establishing standards for
    regular stakeholder communication and routinely notifying stakeholders of new
    developments are essential practices for successfully managing stakeholders. With
    periodic status updates, stakeholders are better informed and more involved in
    making key decisions. This significantly reduces the likelihood that stakeholders are
    surprised by a program’s results and generates greater support for the program
    management team. Similarly, incident-specific communication allows stakeholders to
    proactively take corrective actions and avoids stakeholder resentment for any
    incorrect or unapproved activities.

     The DRIVE program management process consists of financial and non-financial
     plans aimed at saving the Postal Service about $20 billion annually by FY 2015 and
     returning the Postal Service to profitability. The primary stakeholders are Postal
     Service employees who are represented by officers and ELT members. Program
     managers meet frequently with their initiative leads (in the case of Network
     Optimization, weekly) who, in turn, meet with their executive sponsors14. In addition,
     the entire ELT meets bi-weekly where progress against DRIVE initiatives is reported
     and issues are discussed. Further, the SMO also communicates DRIVE activities via
     videos, Postal Career Executive Service 15 Roundtables, Postal Service links,
     articles, and area newsletters.

12. Require signatory approval from responsible or accountable stakeholders at
    all milestones between program phases, including prior to program
    commencement and after program conclusion: Obtaining signed approval from
    stakeholders at all program phases assigns personal accountability for key
    decisions. Stakeholders are more thorough and attentive when forced to sign-off on
    deliverables and take proactive steps to mitigate risks identified in program
    timelines. Written signatures connect a clear owner to each phase’s deliverable,
    making it easier for unfamiliar parties to identify the appropriate individual associated
    with each phase.

     The Postal Service DRIVE process does not include formal stakeholder approval at
     all milestones, but does require approval at program creation (see DAR process 16)
     as well as full ELT approval for any significant subsequent change. Although this
     process is somewhat different than the practice identified, it serves a similar purpose
     of notifying significant stakeholders throughout the life of the program.

13. Make documentation a deliverable: Documentation of processes, outcomes, and
    decisions is often neglected because program managers are preoccupied with more
    urgent activities. Requiring completed documentation before a program exits one

14
   Review of current DRIVE initiatives indicate that the assigned executive sponsor is frequently, but not always, a
member of the ELT.
15
   A staffing category that develops and maintains a motivated, competent group of employees for key management
positions.
16
   http://blue.usps.gov/cpim/ftp/hand/f66e/f66e_c4_003.html, Section 4-3.2.


                                                         14
Delivering Results, Innovation, Value,                                         DP-AR-13-008
 and Efficiency Management


    phase and enters the next ensures that all tasks are actually completed according to
    agreed upon standards. Additionally, program documentation creates a historical
    record of successes and failures, minimizing the potential for similar future mistakes.

    DRIVE program managers have developed standard documentation necessary for
    submission before each ELT review as well as a standardized DRIVE charter.
    However, there is no formal policy outlining the program phases or what
    documentation is required at the conclusion of each phase.

14. Maintain repositories for completed program documentation: Maintaining
    centralized repositories of program documentation and templates allows program
    managers to work more efficiently because they do not have to ‘reinvent the wheel’
    for each new project or program. In organizations with a centralized PMO, dedicated
    program managers supervise the repository and use documentation to build
    educational resources. Program managers can also learn from previous programs
    by accessing past tools and examples. Additionally, a repository allows PMOs to
    locate and distribute subject-specific documents to program managers that require
    that information.

    The SMO recommends retaining several DRIVE documents in their sponsored
    SharePoint directory. However, documents are only available to team members and
    are not used as an educational tool, so it falls short of this best practice intent.

15. Hold organization-wide program management events to bring together
    program management teams split across business lines: To formulate
    organization-wide program standards for language, templates, or documentation,
    companies hold periodic events to assemble program managers. These events
    promote discussion about process standardization and program management best
    practices, facilitating the development of enterprise-wide standards that take into
    account the needs of program managers throughout the company.

    The Postal Service does not hold Postal Service wide conferences for their program
    managers. Informally, members invited to bi-weekly ELT deep dive meetings are
    free to discuss lessons learned and share experiences, but no formal events are
    held.

Program-Level Strategy — How do program managers optimize the performance of
their programs?

16. Implement regular audits and controls for each project at the program
    manager level: Regular audits and controls ensure that no reporting mistake goes
    unnoticed for longer than one audit cycle. Without regular audits of actual progress
    versus reported progress, there is less accountability for team members to report
    accurately and a greater probability that program managers (and executive
    sponsors) receive incomplete or inaccurate information.

    This is not a practice employed by the Postal Service SMO.


                                             15
Delivering Results, Innovation, Value,                                        DP-AR-13-008
 and Efficiency Management



17. Retain consultants who are well-aligned to the organization’s goals to fill
    staffing and technical gaps: Consultants can be instrumental to the success of a
    program, but should only be used as subject matter experts and only when
    necessary.

    The Postal Service SMO has a contract with Deloitte Consulting to provide program
    management services as needed. The SMO has also hosted various program
    management courses with the intent of improving program management skills to the
    point that the need for such services is minimal.

18. Develop a program charter prior to launch: Charters serve to guide a program
    from conception to realization. A program charter can be highly detailed, as is
    usually the case with simple programs or programs with a high certainty of success
    (such as basic information technology installations). Charters can also be vague to
    provide some flexibility, as is more common with complex programs or those with
    less certainty (such as research and development programs). Regardless of the type
    of program, charters are important because they help prevent budget overruns and
    delays by establishing guidelines and protocol.

    The Postal Service’s DRIVE process performs this best practice. Each initiative’s
    charter and DAR represent an extensive list of criteria necessary to properly approve
    and manage strategic initiatives. Effectively following this process allows for buy-in
    from the ELT for each initiative.

19. Adhere to standardized processes for program execution: Standard processes
    make program teams more efficient because it is simpler to learn one process and
    apply it repeatedly than develop a new process for every program.

    Postal Service SMO program managers have adopted standardized processes for
    their programs and for reporting to the ELT. Adherence to DAR requirements,
    standardized DRIVE charter, standard ELT deep dive reporting requirements,
    commonly available training, and sponsored roadmap training adequately address
    this best practice.
    However, as indicated in our review of best practice number four (Enterprise-Level
    Strategy) no comprehensive policy covering the program management process has
    been published.

20. Convene weekly meetings with teams across program functions: Weekly status
    meetings bring program groups together to improve coordination and
    communication. Weekly meetings remind individuals of the big picture and reinforce
    commitment to a common goal, helping achieve buy-in from employees.

    The SMO program managers perform this best practice. One program manager
    indicated he has daily team meetings. The portfolio manager has also indicated daily
    or weekly team meetings with program managers are common.



                                            16
  Delivering Results, Innovation, Value,                                              DP-AR-13-008
   and Efficiency Management



            Appendix C: Project Management Issues Identified In Prior Reports

                                       Report          Final Report
       Report Title                    Number              Date           Monetary Impact
Commercial Mail Entry and         EN-AR-12-004          9/14/2012              $103,600
Acceptance Initiatives
Report Results:
The report identified insufficient monitoring of performance, financial, or operational risks to
ensure commercial mail acceptance transformation projects did not exceed approved funding
levels and meet planned expectations. The OIG recommended the Postal Service closely
monitor and identify for senior management any performance, financial, or operational risks that
develop during the implementation of the DAR to ensure commercial mail acceptance
transformation projects do not exceed approved funding levels and meet planned expectations;
identify and promote additional incentives to increase mailer participation in the full-service
program; develop a plan to identify and address training concerns mailers have with
commercial mail transformation initiative requirements; develop a process that will allow full-
service intelligent mail barcode mailers the opportunity to challenge potential postage
adjustments made to mailings after they have entered the mailstream; develop an action plan
to address and correct PostalOne! operational problems affecting the integrity, reliability, and
functionality of the system; and conduct thorough testing before releasing and implementing
system upgrades.


The Effects of the Flats           DR-MA-10-001          9/23/2010               None
Sequencing System on
Delivery Operations –
Mid-America District
Report Results:
About 2 million mailpieces were not carrier routed and required manual sorting and casing to
put them in delivery walk sequence. Unworked flat mailpieces that arrive at delivery units and
are not processed on the FSS machines negatively impact delivery operations by requiring
manual casing and sorting to put the mailpieces in sequenced order for delivery. The OIG
recommended the Mid-America district manager continue to collaborate with business mailers
to ensure flat mailpieces meet automation requirements and reduce the amount of unworked
flat mail sent to delivery units.




                                                  17
  Delivering Results, Innovation, Value,                                                DP-AR-13-008
   and Efficiency Management




                                     Report            Final Report
       Report Title                 Number                 Date             Monetary Impact
The Effects of the Flats          DR-MA-10-002          9/17/2010               None
Sequencing System on
Delivery Operations –
Columbus District
Report Results:
About 2 million mailpieces were not carrier routed and required manual sorting and casing to
put them in delivery walk sequence. Unworked flat mailpieces that arrive at delivery units and
are not processed on the FSS machines negatively impact delivery operations by requiring
manual casing and sorting to put the mailpieces in sequenced order for delivery. The OIG
recommended the Columbus District manager continue to collaborate with business mailers to
ensure flat mailpieces meet automation requirements and reduce the amount of unworked flat
mail sent to delivery units.


Flats Sequencing System:          DA-AR-10-007         7/27/2010                $1,400,000
Program Status and
Projected Cash Flow
Report Results:
The Postal Service’s revised operating performance projections did not use current actual
machine performance and its projections appeared optimistic. The OIG recommended the
Postal Service use actual machine performance and operational target data to more accurately
report the progress of the FSS program’s financial outcomes.


Flats Sequencing System           DR-AR-10-005          7/1/2010                    None
Operational Issues
Report Results:
Several FSS machines were unavailable for several months and processing issues negatively
impacted delivery operations. The OIG recommended the Postal Service track and monitor
FSS processing operations to reduce labor hours associated with additional manual sorting of
unworked flat mail sent to delivery units; and require plant and district managers to coordinate
efforts in reviewing, updating, and complying with their integrated operating plans to ensure
sequenced flat mail arrives timely to delivery units.




                                                  18
Delivering Results, Innovation, Value,                           DP-AR-13-008
 and Efficiency Management


                             Appendix D: Management's Comments




                                            19
Delivering Results, Innovation, Value,        DP-AR-13-008
 and Efficiency Management




                                         20
